Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   VULNERABILITIES IN FDA’S
   OVERSIGHT OF STATE FOOD
     FACILITY INSPECTIONS




                    Daniel R. Levinson
                     Inspector General

                      December 2011
                     OEI-02-09-00430
    I   N T
           E RX OE DC UU C T T I I V O E N                S U M M A R Y



                           OBJECTIVES
                          1. To determine the extent to which the Food and Drug Administration
                             (FDA) enters into contracts with States to inspect food facilities.
                          2. To determine the extent to which FDA ensures that States complete
                             the inspections required by their contracts.
                          3. To determine whether FDA ensures that State inspections are
                             properly classified and violations are remedied.
                          4. To determine the extent to which FDA audits State inspections and
                             addresses deficiencies identified by audits.


                           BACKGROUND
                           Each year, 128,000 Americans are hospitalized and 3,000 die after
                           consuming contaminated foods and beverages. FDA is responsible for
                           safeguarding the Nation’s food supply and for routinely inspecting food
                           facilities. In addition to conducting its own inspections, FDA relies on
                           State agencies to conduct inspections on its behalf; however, in recent
                           years, concerns have been raised about the rigor of these State
                           inspections. For example, the peanut processing plant responsible for a
                           2009 salmonella outbreak was inspected multiple times by a State
                           agency working on behalf of FDA. This outbreak resulted in one of the
                           largest food recalls in U.S. history and has led to serious questions
                           about the effectiveness of State food facility inspections. Because of
                           concerns about food facility inspections conducted by State agencies,
                           this review was requested by the House Committee on Appropriations,
                           Subcommittee on Agriculture, Rural Development, Food and Drug
                           Administration, and Related Agencies.
                           FDA often enters into contracts with State agencies responsible for
                           ensuring food safety. Each contract includes the number of food facility
                           inspections the State will conduct for FDA and the amount the State
                           will be paid for each inspection. During the 2009 contract year, FDA
                           held contracts with 41 States to conduct FDA’s inspections.
                           FDA oversees State inspections though its Contract Inspection Audit
                           Program. The audit program is designed to verify that States conduct




OEI-02-09-00430            VULNERABILITIES   IN   F D A’ S O V E R S I G H T   OF   S TAT E F O O D FA C I L I T I E S I N S P E C T I O N S   i
    E   X   E C   U T   I    V   E       S         U M          M      A        R Y


                            inspections that satisfy the requirements of their contracts. FDA
                            requires that a minimum of 7 percent of a State’s contract inspections
                            be audited each year. This minimum percentage—which is known as
                            the minimum audit rate—ensures that States are conducting adequate
                            inspections that meet the conditions of the contract.
                            We based this study on several sources of data: (1) FDA’s inspection
                            data, (2) FDA’s documentation of contract inspections and payment
                            data, (3) audit and corrective action documentation, and (4) structured
                            interviews with FDA officials.


                            FINDINGS
                            FDA has increasingly relied on States to inspect food facilities.
                            Although the number of food facilties inspected by FDA has decreased
                            since 2004, the number of facilities inspected by States under contract
                            to FDA has increased significantly. In fiscal year (FY) 2009, 59 percent
                            of FDA’s food inspections were conducted by State inspectors, compared
                            to only 42 percent in FY 2004.
                            In eight States, FDA failed to ensure that the required number of
                            inspections was completed; FDA paid for many inspections that
                            were incomplete. These 8 States were responsible for completing a
                            total of 2,170 inspections; however, these States failed to complete
                            10 percent of these inspections during the contract year. When States
                            fail to complete the inspections required in their contracts, FDA’s ability
                            to identify facilities with potentially serious food safety violations is
                            diminished. Also, FDA paid for 130 of the 221 inspections that were not
                            completed. In four additional States, FDA paid for inspection visits,
                            even though payment for such visits was not specified in the States’
                            contracts.
                            FDA did not ensure that all State inspections were properly
                            classified and that all violations were remedied. FDA officials
                            responsible for 11 of 41 States were unclear about how to properly
                            classify contract inspections. In these 11 States, FDA officials reported
                            that they would not assign official action indicated classifications to
                            State inspections under any circumstances, contrary to FDA guidance.
                            If FDA does not correctly classify inspections that reveal serious
                            violations, its ability to assess facilities’ relative risk is impaired.
                            Additionally, FDA officials responsible for another 11 States reported
                            that when States were responsible for correcting violations, FDA was
                            not always informed about actions taken by the States. As a result,

OEI-02-09-00430             VULNERABILITIES   IN   F D A’ S O V E R S I G H T   OF   S TAT E F O O D FA C I L I T Y I N S P E C T I O N S   ii
    E   X   E C   U T   I    V   E       S         U M          M      A        R Y


                            FDA was unable to ensure that serious violations had been adequately
                            addressed.
                            FDA failed to complete the required number of audits for one-third
                            of the States and did not always follow up on systemic problems
                            identified. For 14 of 41 States with contracts, FDA did not complete
                            the required number of audits and therefore failed to meet its minimum
                            audit rate. Additionally, the audits in 10 States revealed systemic
                            problems that needed to be corrected; however, FDA initiated corrective
                            action in only 4 of the 10 States. If FDA does not follow its guidance
                            and complete the required number of audits and address systemic
                            problems, it cannot verify that States are conducting suitable
                            inspections that satisfy the requirements of the contracts.


                            RECOMMENDATIONS
                            Our report identified significant weaknesses in FDA’s oversight of food
                            facility inspections conducted by States. Taken together, the findings
                            demonstrate that more needs to be done to protect public health and to
                            ensure that contract inspections are effective and prevent outbreaks of
                            foodborne illness. Therefore, we recommend that FDA:
                            Ensure that all contract inspections are completed, properly
                            documented, and appropriately paid for.
                            Ensure that contract inspections are properly classified in
                            accordance with FDA guidance.
                            Ensure that all inspection violations are remedied by routinely
                            tracking all actions taken to correct violations.
                            Ensure that the minimum audit rate is met in all States.
                            Address any systemic problems identified by audits.


                            AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                            RESPONSE
                            FDA concurred with four of our recommendations and agreed in part
                            with the fifth.
                            In response to our first recommendation, to ensure that all contract
                            inspections are completed, properly documented, and appropriately paid
                            for, FDA concurred, stating that it is conducting a systematic review of
                            the State contracting program.


OEI-02-09-00430             VULNERABILITIES   IN   F D A’ S O V E R S I G H T   OF   S TAT E F O O D FA C I L I T Y I N S P E C T I O N S   iii
       E   X      E C   U T    I   V   E         S       U M           M          A     R Y


                              In response to our second recommendation, to ensure that contract
                              inspections are properly classified, FDA concurred and noted that it is
                              revising its directive to emphasize more clearly that classifications must
                              be accurate, timely, and uniform.
                              In response to our third recommendation, to ensure that all inspection
                              violations are remedied by routinely tracking all actions taken to correct
                              violations, FDA agreed to track most violative inspections and the
                              remedies taken by industry. However, FDA noted that certain
                              violations may not be suitable for inspection followup and that other
                              approaches may be used to track such violations. While we appreciate
                              FDA’s commitment to track certain violations, we encourage it to track
                              all violations, even those that do not warrant followup inspections. FDA
                              can use violation information to help establish the relative risk of
                              facilities and determine how often they should be inspected.
                              In response to our fourth recommendation, to ensure that the minimum
                              audit rate is met in all States, FDA concurred, noting that it is
                              reviewing the current reporting requirements to ensure that audits are
                              completed and tracked to verify compliance with FDA requirements.
                              Finally, in response to our fifth recommendation, to address any
                              systemic problems identified by audits, FDA concurred and noted that it
                              will continue to develop processes and procedures to ensure that
                              systemic problems are identified and that corrective action plans are
                              implemented.
                              We support FDA’s efforts to strengthen State contract inspections and
                              address the issues identified in the report. With the implementation of
                              the Manufactured Food Regulatory Program Standards, FDA’s
                              oversight of State inspections is even more critical. As States adopt the
                              standards, it is essential that FDA strengthen not only States’ oversight
                              but also its own oversight to ensure that States conduct high-quality
                              food facility inspections.




OEI-02-09-00430               VULNERABILITIES   IN   F D A’ S O V E R S I G H T   OF   S TAT E F O O D FA C I L I T Y I N S P E C T I O N S   iv
   T A B L E           O F           C O N T E N T S



         EXECUTIVE SUMMARY .....................................i


         INTRODUCTION ............................................ 1


         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
                    FDA has increasingly relied on States to inspect food facilities . . . 10

                    In eight States, FDA failed to ensure that the required number
                    of inspections was completed; FDA paid for many inspections
                    that were incomplete . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

                    FDA did not ensure that all State inspections were properly
                    classified and that all violations were remedied. . . . . . . . . . . . . . 12

                    FDA failed to complete the required number of audits
                    for one-third of the States and did not always follow
                    up on systemic problems identified . . . . . . . . . . . . . . . . . . . . . . . . . 14


         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
                    Agency Comments and Office of Inspector General Response. . . . 19


         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
                    A: Performance Factors of the Contract Audit . . . . . . . . . . . . . . . 21

                    B: States’ Role in Conducting Audits as Part of the
                       Food and Drug Administration’s Contract Inspection
                       Audit Program . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

                    C: Description of Services in State Contracts for the 2009
                       Contract Year . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

                    D: Number of Inspections Classified as Official Action Indicated
                       Conducted by FDA and by States, FYs 2004–2009 . . . . . . . . . 25

                    E: Audits Completed for the 2009 Contract Year, by State . . . . . 26

                    F: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27


         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32
         I N T R O D U C T I O N


                   OBJECTIVES
                   1. To determine the extent to which the Food and Drug
                      Administration (FDA) enters into contracts with States to
                      inspect food facilities.
                   2. To determine the extent to which FDA ensures that States
                      complete the inspections required by their contracts.
                   3. To determine whether FDA ensures that State inspections are
                      properly classified and violations are remedied.
                   4. To determine the extent to which FDA audits State inspections
                      and addresses deficiencies identified by audits.


                   BACKGROUND
                   Each year, 128,000 Americans are hospitalized and 3,000 die after
                   consuming contaminated foods and beverages.1 FDA is
                   responsible for safeguarding the Nation’s food supply and for
                   routinely inspecting food facilities. In addition to conducting its
                   own inspections, FDA relies on State agencies to conduct
                   inspections on its behalf; however, in recent years, concerns have
                   been raised about the rigor of these State inspections. For
                   example, the peanut processing plant responsible for a
                   2009 salmonella outbreak was inspected multiple times by a State
                   agency working on behalf of FDA. 2 This outbreak resulted in one
                   of the largest food recalls in U.S. history and has led to serious
                   questions about the effectiveness of State food facility inspections.
                   The FDA Food Safety Modernization Act was enacted in January
                   2011. This Act substantially increases the number of annual
                   inspections that FDA will need to complete; it also authorizes FDA
                   to continue its reliance upon State agencies to complete these
                   additional inspections.3



                   1 Elaine Scallan et al., “Foodborne Illness Acquired in the United States—
                   Unspecified Agents,” Emerging Infectious Diseases, Vol. 17, No. 1, January 2011.
                   Accessed at http://www.cdc.gov on January 28, 2011.
                   2 FDA, Update on the Salmonella Typhimurium Investigation, FDA/CDC Joint
                   Media Teleconference, January 28, 2009. Accessed at http://www.fda.gov on
                   January 28, 2011.
                   3 P.L. 111-353.




OEI-02-09-00430    VULNERABILITIES   IN   F D A’ S O V E R S I G H T   OF   S TAT E F O O D FA C I L I T Y I N S P E C T I O N S   1
  I   N T    R O   D   U   C T     I   O     N


                           Because of concerns about food facility inspections conducted by
                           State agencies, the House Committee on Appropriations,
                           Subcommittee on Agriculture, Rural Development, Food and Drug
                           Administration, and Related Agencies requested that the Office of
                           Inspector General (OIG) review FDA’s oversight of the program.
                           Among other things, the Committee was concerned about State
                           inspections conducted under contract with FDA, as well as FDA’s
                           audits of these inspections.
                           FDA’s State Inspection Contracts
                           FDA often enters into contracts with State agencies responsible for
                           ensuring food safety. Each contract specifies the number of food
                           facility inspections the State will conduct for FDA; the amount the
                           State will be paid for each inspection; and the extent to which the
                           State will be paid for other activities, such as travel and training.
                           In addition, each contract should specify whether the State will be
                           compensated for inspection visits. An inspection visit occurs when
                           an inspector visits a food facility in an attempt to conduct an
                           inspection, but the inspection cannot be completed. 4
                           During the 2009 contract year, FDA held contracts with 41 States
                           to conduct FDA’s inspections. 5 In the remaining States, FDA
                           conducted all of its inspections without any State assistance. For
                           the 2009 fiscal year (FY), FDA spent over $8 million for State
                           contract inspections.
                           Officials from FDA’s 19 district offices have the primary
                           responsibility for overseeing contract inspections. These officials
                           work with the States to determine which facilities will be
                           inspected by FDA and which will be inspected by the States on
                           FDA’s behalf. 6 These officials, in conjunction with certain
                           contracting officials in FDA headquarters, are also responsible for
                           ensuring that States have completed the required number of



                           4 This generally occurs when a facility is out of business or no longer subject to FDA
                           inspection. A facility may no longer be subject to FDA inspection if, for example, it
                           stops engaging in interstate commerce or if it is a seasonal facility that is not in
                           operation at the time of the inspection visit.
                           5 FDA has a contract with Puerto Rico to conduct food facility inspections. In this
                           report, we refer to Puerto Rico as a State. In two instances, FDA had contracts with
                           two agencies in a State (the Departments of Health and Agriculture). We used the
                           information from both contracts in our analysis of these States.
                           6 In some cases, both FDA and the State may inspect the same facility during the
                           FY.



OEI-02-09-00430            VULNERABILITIES   IN   F D A’ S O V E R S I G H T   OF   S TAT E F O O D FA C I L I T Y I N S P E C T I O N S   2
  I   N T    R O   D   U   C T        I   O   N

                           inspections, that all inspections are properly documented, and that
                           States are appropriately paid for completed inspections. 7
                           For each inspection, the State documents its findings in an
                           inspection report and submits this report to FDA within 30 days of
                           the inspection.8 Each report is entered into a database that
                           houses information about all FDA inspections. FDA then reviews
                           and approves the information in this database. Additionally,
                           States must submit a quarterly invoice that lists all inspections
                           completed during the previous 90 days.9
                           Identifying Inspection Violations
                           During an inspection, State inspectors may identify potential
                           violations of food safety laws and regulations. These violations are
                           recorded in the inspection report. Based on the inspection report,
                           FDA generally assigns one of three classifications: official action
                           indicated (OAI), voluntary action indicated (VAI), or no action
                           indicated (NAI). 10 An OAI classification signifies that the
                           inspector found objectionable conditions in the food facility and
                           that these violations potentially “warrant regulatory action.” 11
                           This type of violation is the most significant identified by
                           inspectors. A VAI classification signifies that the inspector found
                           violations that are serious enough to record but do not cross “the
                           threshold for regulatory action.” 12 An NAI classification signifies
                           that the inspector found either no violations of law and regulations
                           or violations that were so insignificant that no action is
                           warranted.13
                           In addition, under certain circumstances, FDA may also classify
                           an inspection as “referred to State” (RTS). According to FDA
                           guidance, an RTS classification signifies that there is either no




                           7 FDA,     2009 Request for Proposals: Food, § C-1(G)(6–8).
                           8 Ibid., § C-1(G)(6).

                           9 Ibid., § F-1(G)(5).

                           10 FDA, Office of Regulatory Affairs,
                                                              Field Management Directive No. 86:
                           Establishment Inspection Report Conclusions and Decisions (rev. June 7, 2007).
                           Accessed at http://www.fda.gov on January 28, 2011.
                           11 Ibid. Regulatory actions include warning letters, injunctions, and seizures.

                           12 Ibid.

                           13 More information about inspection violations can be found in OIG, FDA
                           Inspections of Domestic Food Facilities, OEI-02-08-00080, April 2010.



OEI-02-09-00430            VULNERABILITIES    IN   F D A’ S O V E R S I G H T   OF   S TAT E F O O D FA C I L I T Y I N S P E C T I O N S   3
  I   N T    R O   D   U   C T        I   O     N

                           Federal jurisdiction over the violation in question or that State
                           action is the most efficient method of obtaining compliance.14
                           FDA’s Contract Inspection Audit Program
                           FDA oversees State inspections though its Contract Inspection
                           Audit Program, which is designed to verify that the State
                           “conducts suitable inspections that satisfy the requirements
                           contained in a contract.” 15 FDA guidance requires that a
                           minimum of 7 percent of a State’s contract inspections be audited
                           each year. This minimum percentage—which is known as the
                           minimum audit rate—ensures that States are conducting
                           adequate inspections that meet the conditions of the contract. 16
                           To perform these audits, an auditor accompanies a State inspector
                           who is conducting a contract inspection. Although most audits are
                           conducted by FDA auditors, under certain circumstances, States
                           may choose to assume responsibility for auditing their own
                           inspectors. The auditor observes and assesses the inspector’s
                           performance according to at least 18 performance factors and rates
                           each as either acceptable or needing improvement. See
                           Appendix A for a description of these performance factors. Based
                           on the total number of deficiencies, the inspector is assigned an
                           overall rating of either acceptable or needing improvement.
                           According to FDA guidance, State inspectors who receive an
                           overall rating of needing improvement should receive remedial
                           training from either FDA or the State to address the deficiencies
                           prior to resuming their inspection duties.17
                           These audits are also used to identify systemic problems in States’
                           inspection programs. According to FDA guidance, a systemic
                           problem exists when audits identify the same deficiency in
                           multiple audits during the same contract year.18 FDA uses the



                           14 FDA, Office of Regulatory Affairs,
                                                              Field Management Directive No. 86:
                           Establishment Inspection Report Conclusions and Decisions (rev. June 7, 2007).
                           Accessed at http://www.fda.gov on January 28, 2011.
                           15 FDA, Office of Regulatory Affairs,                       Field Management Directive No. 76: § III.B.
                           Accessed at http://www.fda.gov on January 28, 2011.
                           16 According to its guidance, FDA may lower the minimum audit rate upon request
                           from the district office. See Field Management Directive No. 76: § III.B. Accessed
                           at http://www.fda.gov on January 28, 2011.
                           17 Ibid., § III.F.

                           18 Ibid.




OEI-02-09-00430            VULNERABILITIES      IN   F D A’ S O V E R S I G H T   OF   S TAT E F O O D FA C I L I T Y I N S P E C T I O N S   4
  I   N T    R O   D   U   C T        I   O   N

                           threshold of four or more audits to determine whether a specific
                           aspect of a State’s inspection program needs improvement.19 A
                           systemic problem also exists when 20 percent of the performance
                           factors in a State are rated as needing improvement. 20
                           When systemic problems are identified, FDA and the State should
                           determine the possible causes and solutions and agree on the type
                           of corrective actions that may be needed. According to its
                           guidance, FDA must monitor the effectiveness of the corrective
                           actions.21 If the deficiencies are not corrected in a reasonable
                           amount of time or if they affect a substantial portion of the State’s
                           work, FDA may recommend probation, nonextension, or
                           termination of the contract. 22
                           During the 2009 contract year, FDA was responsible for
                           conducting all of the audits in 27 States. Ten States were
                           responsible for conducting all of their audits, and four States were
                           in the process of assuming responsibility for conducting their
                           audits. 23 See Appendix B for more detailed information about the
                           States’ role in conducting audits.
                           Manufactured Food Regulatory Program Standards
                           In May 2007, FDA implemented the Manufactured Food
                           Regulatory Program Standards. These optional standards are
                           designed to improve States’ food safety programs and to develop
                           greater consistency across State inspection programs. The
                           standards address a wide range of initiatives designed to improve
                           the overall quality of State inspection programs, such as
                           developing appropriate protocols for food inspections and
                           instituting a standard training curriculum for inspectors. These
                           standards apply to a State’s entire food safety program and are not
                           limited to inspections conducted under contract with FDA. For the
                           2009 contract year, 21 States agreed to implement these




                           19 FDA,    2009 Request for Proposals: Food, § C-1(G)(5).
                           20 See   Field Management Directive No. 76, § III.E
                           21 FDA Office of Regulatory Affairs,                  Field Management Directive No. 76,
                           § II.F(6). Accessed at http://www.fda.gov on January 28, 2011.
                           22 Ibid.

                           23 Note that although these four States conducted some audits for training purposes,
                           FDA was ultimately responsible for meeting the minimum audit rate in these States.



OEI-02-09-00430            VULNERABILITIES    IN   F D A’ S O V E R S I G H T   OF   S TAT E F O O D FA C I L I T Y I N S P E C T I O N S   5
  I   N T    R O   D   U   C T       I   O   N

                           standards; all of these States were in the early stages of
                           implementation. 24
                           Related Work
                           This report builds upon a June 2000 OIG report that assessed
                           FDA’s oversight of State inspection contracts. That report found
                           that FDA faced significant barriers in overseeing State
                           inspections, including limited training provided by FDA to State
                           inspectors and limited agency expertise in providing contract
                           oversight.25 In response to the report, FDA developed its Contract
                           Inspection Audit Program.
                           OIG has also completed a number of other studies evaluating
                           FDA’s role in ensuring food safety. In a 2010 report evaluating
                           FDA’s inspections of domestic food facilities, OIG found that more
                           than half of all food facilities have gone 5 or more years without an
                           FDA inspection and that FDA does not always take swift and
                           effective action to remedy violations found during inspections. 26 In
                           a 2009 report on food traceability, OIG found that only 5 of 40
                           selected food products could be traced through each stage of the
                           food supply chain. 27 It also found that 59 percent of selected food
                           facilities did not comply with FDA’s recordkeeping requirements
                           and that these requirements were not sufficient to ensure the
                           traceability of the food supply. OIG also issued a report that found
                           that 5 percent of selected facilities failed to register with FDA as
                           required and that almost half of the selected facilities failed to
                           provide FDA with accurate information about their facilities. 28




                           24 An additional three States agreed to implement these standards, but not as part
                           of their contracts with FDA.
                           25 OIG,   FDA Oversight: A Call for Greater Accountability, OEI-01-98-00400,
                           June 2000.
                           26 OIG,   FDA Inspections of Domestic Food Facilities, OEI-02-08-00080, April 2010.
                           27 OIG,   Traceability in the Food Supply Chain, OEI-02-06-00210, March 2009.
                           28 OIG,   FDA’s Food Facility Registry, OEI-02-08-00060, December 2009.



OEI-02-09-00430            VULNERABILITIES   IN   F D A’ S O V E R S I G H T   OF   S TAT E F O O D FA C I L I T Y I N S P E C T I O N S   6
  I   N T    R O   D   U   C T     I   O     N



                           METHODOLOGY
                           Scope
                           This study assesses FDA’s oversight of State food facility
                           inspections. It focuses on contract inspections and audits
                           completed during the 2009 contract year; it does not include
                           inspections conducted by States on their own behalf. 29
                           Analysis of FDA’s Inspection Data
                           We requested and reviewed data from FDA on all food facility
                           inspections for FYs 2004 through 2009 from its inspections
                           database, called the Field Accomplishments and Compliance
                           Tracking System (FACTS). FACTS includes information about all
                           FDA inspections conducted by FDA and by States under contract
                           with FDA, as well as the classifications of each inspection. We
                           analyzed these data to determine the number of facilities
                           inspected each year.
                           Analysis of State Contract Inspections and Payment Data
                           We requested from FDA all contracts for the 41 States conducting
                           food facility inspections on FDA’s behalf. 30 Specifically, we
                           requested and reviewed the contracts for the 1-year contract
                           period ending in 2009. 31 These contracts started at different times
                           during 2008. In this study, we refer to this period as the
                           2009 contract year. We also requested and reviewed information
                           about any changes made to the contracts, including any
                           extensions.32
                           Based on our review of the contracts, we determined the total
                           number of inspections that each State was required to conduct.
                           We also determined whether inspection visits were allowable




                           29 In addition to entering into contracts, FDA has partnership agreements with
                           some States. These partnership agreements allow States and FDA to share
                           information about inspections they conduct. We did not evaluate any partnership
                           agreements, as these inspections are conducted by States on their own behalf.
                           30 In two instances, FDA had contracts with two agencies in a State (the
                           Departments of Health and Agriculture). We used the information from both
                           contracts in our analysis of these States.
                           31 We chose to use contracts ending in 2009 because it was the contract year most
                           recently completed when we started this study.
                           32 Three States’ contracts were extended beyond the contract year through an
                           agreement with FDA headquarters.



OEI-02-09-00430            VULNERABILITIES   IN   F D A’ S O V E R S I G H T   OF   S TAT E F O O D FA C I L I T Y I N S P E C T I O N S   7
  I   N T    R O   D   U   C T     I   O     N

                           under the contract and, therefore, should have been counted
                           toward the total number of required inspections.
                           To determine how many contract inspections were completed in
                           the 2009 contract year, we obtained data from several sources.
                           First, we analyzed FACTS to determine the total number of
                           inspections recorded for each State. Next, we asked each FDA
                           district office to provide us with documentation about any
                           additional inspections or inspection visits completed by the State
                           but not entered into FACTS. Using information in FACTS along
                           with any additional FDA documentation provided, we determined
                           how many inspections were completed by each State.
                           Lastly, we requested and reviewed information from FDA about
                           the total number of inspections FDA paid for in each State. We
                           used these data to determine whether FDA inappropriately paid
                           for any inspections that were not completed.
                           Analysis of Audit and Corrective Action Documentation
                           We requested from FDA documentation of all audits conducted
                           during the contract year. We analyzed this documentation to
                           determine how many audits were conducted in each State and
                           whether the required number of audits was completed. 33 To
                           determine the required number of audits, we calculated the
                           minimum audit rate. 34 We took into account any instances in
                           which FDA had requested a lowered audit rate for a State.
                           We then reviewed the audits to determine the extent to which
                           individual State inspectors had deficiencies and States had
                           systemic problems. We considered an inspector to have a
                           deficiency if he or she received a rating of needing improvement in
                           at least one performance factor. We considered a State to have a
                           systemic problem when the same performance factor was rated as
                           needing improvement in four or more audits or when 20 percent or
                           more of the performance factors in all audits in the State were
                           rated as needing improvement. We then reviewed the audits to




                           33 FDA provided joint inspection documentation as part of its audit documentation.
                           A joint inspection by FDA and the State may count as an audit if it is used for
                           training purposes. Joint inspections do not include inspector performance factors
                           and generally do not include an overall rating.
                           34 If the number of audits required was not a whole number, we rounded down to
                           the nearest whole number.



OEI-02-09-00430            VULNERABILITIES   IN   F D A’ S O V E R S I G H T   OF   S TAT E F O O D FA C I L I T Y I N S P E C T I O N S   8
  I   N T    R O   D   U   C T     I   O     N

                           determine the performance factors most frequently rated as
                           needing improvement and the nature of these deficiencies.
                           We also requested and reviewed documentation from FDA on any
                           actions taken by FDA or the States to correct deficiencies
                           identified in the audits. We analyzed this information to
                           determine the extent to which FDA followed up on problems
                           identified by the audits.
                           Structured Interviews With FDA Officials
                           We conducted structured interviews with officials from each of
                           FDA’s 19 district offices. Our interview questions focused on how
                           FDA oversees inspections conducted under contract with FDA.
                           Specifically, we asked officials about how FDA tracks the
                           completion of contract inspections, audits State inspectors and
                           identifies deficiencies, and classifies contract inspections. We
                           conducted these interviews with the district offices between March
                           and April 2010. Additionally, we interviewed key FDA
                           headquarters officials throughout the study. We asked these
                           officials questions similar to those we asked in interviews with
                           district officials, as well as additional questions to help clarify how
                           they oversee contract inspections.
                           Limitations
                           We relied on FDA data to determine the extent to which States
                           completed the inspections required by their contracts. We did not
                           independently verify the accuracy of FDA’s data.
                           Standards
                           This study was conducted in accordance with the Quality Standards
                           for Inspection and Evaluation issued by the Council of the Inspectors
                           General on Integrity and Efficiency.




OEI-02-09-00430            VULNERABILITIES   IN   F D A’ S O V E R S I G H T   OF   S TAT E F O O D FA C I L I T Y I N S P E C T I O N S   9
          F I N D I N G S


             FDA has increasingly relied on States to                  The overall number of
                              inspect food facilities                  facilities inspected has
                                                                       decreased from just over
                                17,000 facilities in FY 2004 to about 15,900 in FY 2009. Over this
                                same period, the number—as well as the percentage—of facilities
                                inspected by States under contract with FDA has increased
                                significantly. In FY 2009, 59 percent of FDA’s food inspections
                                were conducted by State inspectors, compared to only 42 percent
                                in FY 2004. (See Table 1.)


                  Table 1: Food Facilities Inspected by FDA and by States Under Contract
                  With FDA, FYs 2004–2009
                                                                                                          Number of Food
                                                                   Number of Food                                Facilities                       Percentage of
                                    Total Number of                      Facilities                          Inspected by                        Food Facilities
                   Fiscal            Food Facilities             Inspected by FDA                           States Under                           Inspected by
                   Year                   Inspected                                                         FDA Contract                                 States
                     2004                     17,032                                 10,354                                  7,073                         42%
                     2005                     15,773                                  8,247                                  7,828                         50%
                     2006                     14,547                                  7,065                                  7,695                         53%
                     2007                     14,418                                  6,118                                  8,506                         59%
                     2008                     15,055                                  6,209                                  9,050                         60%
                     2009                     15,920                                  6,796                                  9,430                         59%
                  Note: The number of facilities inspected by FDA and the number of facilities inspected by States are not mutually
                  exclusive and therefore do not sum to the total number of facilities inspected. On average, 271 facilities were
                  inspected by both FDA and States in each FY.

                  Source: OIG analysis of FDA data, 2010.

                                According to FDA officials, one reason FDA relies on States is that
                                these inspections are conducted under State regulatory authority,
                                which often exceeds FDA’s own authority. For example, several
                                FDA officials noted that, under certain conditions, State inspectors
                                can immediately shut down a facility or seize unsafe food products,
                                whereas FDA would have to go through a lengthy legal process to
                                achieve similar results.
                                FDA officials also noted that the Food Safety Modernization Act
                                gives FDA additional inspection responsibilities and provides a
                                mandate from Congress to continue to work closely with States to
                                conduct these additional inspections. Officials reported that their
                                goal is to establish an integrated, nationwide food-safety system
                                with equivalent and coordinated inspections, inspection
                                requirements, and training for inspectors.



OEI-02-09-00430                 VULNERABILITIES    IN   F D A’ S O V E R S I G H T   OF   S TAT E F O O D FA C I L I T Y I N S P E C T I O N S                     10
  F   I   N   D I     N G        S

   In eight States, FDA failed to ensure that the required                    Each year, FDA
                                                                              enters into contracts
    number of inspections was completed; FDA paid for
                                                                              with States. These
                  many inspections that were incomplete
                                                                              contracts specify the
                                  total number of inspections that each State must complete during
                                  the contract year. FDA is responsible for ensuring that States
                                  conduct the required number of inspections and for appropriately
                                  paying the States for them. 35
                                  According to FDA data, inspections in 8 of the 41 States were not
                                  completed. As a part of completing inspections, each State must
                                  submit an inspection report that details the findings of the
                                  inspection. Each of these inspection reports is then required to be
                                  included in FDA’s inspections database. For these eight States,
                                  the required reports were not contained in FDA’s inspections
                                  database, nor could FDA locate paper copies of the reports. As a
                                  result, FDA’s data indicate that the required inspections were not
                                  completed in accordance with FDA guidance.




                  Table 2: Number of Required Inspections Not Completed, Based on FDA
                  Data, 2009

                                          Number of Inspections                       Number of Inspections                        Number of Inspections
                   State                             in Contract                                 Completed                               Not Completed
                    Nevada                                           153                                               59                            94
                    California                                       335                                             248                             87
                    West Virginia                                    125                                             102                             23
                    Oklahoma                                         300                                             290                             10
                    Connecticut                                        70                                              67                             3
                    Texas                                            685                                             683                              2
                    Maine                                              32                                              31                             1
                    Virginia                                         470                                             469                              1
                       Total                                      2,170                                           1,949                             221
                  Source: OIG analysis of FDA data, 2010.




                                  As shown in Table 2, these 8 States were responsible for
                                  completing a total of 2,170 inspections; however, FDA had no




                                   35 For detailed information about each State’s contract and the number of required
                                  inspections, see Appendix C.



OEI-02-09-00430                   VULNERABILITIES   IN   F D A’ S O V E R S I G H T   OF   S TAT E F O O D FA C I L I T Y I N S P E C T I O N S            11
       F   I   N    D I   N G     S

                                documentation indicating that 10 percent (or 221) of these
                                inspections were conducted during the contract year.
                                FDA paid for most of these incomplete inspections without first
                                verifying that the inspections had been completed and that the
                                inspection reports were contained in FDA’s database as required.
                                Of the 221 inspections not completed, FDA paid for 130. FDA
                                officials explained that they do not typically verify that inspections
                                are contained in FDA’s database prior to making payments to
                                States. As a result, officials did not know whether the inspections
                                they were paying for had been completed. When FDA does not
                                verify that inspections are completed prior to payment, States may
                                be paid inappropriately.
                                In four additional States, FDA paid for inspection visits, even though
                                payment for such visits was not specified in the States’ contracts
                                As noted earlier, an inspection visit occurs when an inspector
                                visits a food facility but cannot complete the inspection. Each
                                contract should specify whether the State will be compensated for
                                inspection visits. However, a number of States had contracts that
                                did not mention inspection visits or state whether these visits
                                should be paid for by FDA. Officials noted that they do not
                                routinely verify whether payments for inspection visits are
                                allowable under the contracts prior to making payments to States.
                                Several FDA officials have noted that this is because FDA has
                                traditionally paid for inspection visits regardless of what was
                                included in the contracts.


                                                                       FDA is responsible for
FDA did not ensure that all State inspections were
                                                                       classifying State inspections
         properly classified and that all violations                   and for working with States to
                                    were remedied                      remedy violations. According
                                to FDA guidance, uniform classification of State inspections is
                                critical to the success of FDA’s food safety program. 36 It is also
                                critical that FDA ensure that all inspection violations are
                                remedied, so that it may be assured of the safety of food produced
                                by facilities that had serious violations.



                                36 FDA, Office of Regulatory Affairs,
                                                                   Field Management Directive No. 86:
                                Establishment Inspection Report Conclusions and Decisions (rev. June 7, 2007).
                                Accessed at http://www.fda.gov on January 28, 2011.



  OEI-02-09-00430               VULNERABILITIES   IN   F D A’ S O V E R S I G H T   OF   S TAT E F O O D FA C I L I T Y I N S P E C T I O N S   12
  F   I   N   D I   N G   S

                          FDA did not ensure that all contract inspections were properly
                          classified; as a result, FDA was unable to assess the relative risk of
                          facilities
                          In discussions with FDA officials, we learned that officials
                          responsible for 11 of 41 States were unclear about how to properly
                          classify contract inspections. As noted earlier, FDA assigns each
                          inspection an OAI, VAI, NAI, or RTS classification; OAI
                          classifications generally are assigned when the most serious
                          violations are identified. In these 11 States, FDA officials reported
                          that they would not assign OAI classifications to State inspections
                          under any circumstances and instead assigned only VAI or RTS
                          classifications for facilities with the most serious violations,
                          contrary to FDA guidance. Several of the officials responsible for
                          these 11 States noted that they believed that OAI classifications
                          could not be used for State contract inspections.
                          In addition, despite that fact that FDA conducted fewer
                          inspections than States, FDA inspections were much more likely to
                          receive OAI classifications when compared to State contract
                          inspections. Among all inspections conducted between
                          FYs 2004 and 2009, those conducted by FDA inspectors received
                          almost five times as many OAI classifications as those conducted
                          by State inspectors. Although this disparity can be explained, in
                          part, by the fact that FDA more frequently inspects high-risk
                          facilities, this alone does not explain such a significant disparity
                          between State and FDA inspections. 37
                          If FDA does not correctly classify inspections with serious
                          violations, its ability to assess facilities’ relative risk is impaired.
                          Beginning in FY 2011, FDA began assigning facilities numeric
                          scores that were based partially on the number of past inspections
                          that had been assigned OAI classifications. If FDA does not
                          properly classify State contract inspections with the most serious
                          violations, it cannot easily determine the facilities that pose
                          greater risks for foodborne illness.
                          FDA did not know whether all inspection violations were remedied
                          FDA officials reported that depending on the State and the nature
                          of the violations, FDA, the State, or both assume responsibility for



                          37 See Appendix D for a comparison of the number of OAI classifications assigned for
                          inspections conducted by States versus those conducted by FDA.



OEI-02-09-00430           VULNERABILITIES   IN   F D A’ S O V E R S I G H T   OF   S TAT E F O O D FA C I L I T Y I N S P E C T I O N S   13
F    I   N   D I   N G   S

                             addressing any violations identified during State inspections. In
                             all cases, FDA is responsible for ensuring that any State actions
                             taken are adequate to ensure that the violations found during
                             inspections are corrected. FDA officials responsible for 11 States
                             reported that when States were responsible for ensuring that
                             violations were corrected, FDA was not always informed about
                             States’ actions. As a result, FDA was unable to ensure that
                             serious violations had been adequately addressed.


                                                                    FDA oversees State
       FDA failed to complete the required number of
                                                                    inspections through its
        audits for one-third of the States and did not              Contract Inspection Audit
    always follow up on systemic problems identified                Program. To perform an
                                                                    audit, an auditor
                             accompanies a State inspector who is conducting a contract
                             inspection. FDA guidance requires that a minimum of 7 percent of
                             its contract inspections be audited each year. This minimum—
                             which is known as the minimum audit rate—ensures that the
                             quality of the inspections conducted by States is adequate and that
                             States are satisfying the requirements of their contracts. In
                             addition to conducting these audits, FDA is also responsible for
                             following up on any systemic problems identified.
                             FDA failed to complete the required number of audits in 14 of
                             41 States
                             For one-third of the States with contracts, FDA did not complete
                             the required number of audits and therefore failed to meet its
                             minimum audit rate. Specifically, in these States, FDA failed to
                             complete 38 percent (85 of 222) of the required audits. 38 For each
                             of these 14 States, FDA was responsible for conducting the
                             required audits and for meeting the minimum audit rate. For the
                             2009 contract year, 553 required audits were completed for all
                             States under contract. 39
                             FDA officials generally attributed their inability to complete the
                             required number of audits to a lack of resources. For example, one



                             38 Note that four States met their minimum audit rate because FDA lowered the
                             rate and audited a reduced number of inspections.
                             39 See Appendix E for the total number of audits completed for each State during the
                             2009 contract year.



OEI-02-09-00430              VULNERABILITIES   IN   F D A’ S O V E R S I G H T   OF   S TAT E F O O D FA C I L I T Y I N S P E C T I O N S   14
     F   I   N    D I   N G     S
                              official noted that his district ran out of the travel funds needed to
                              complete the audits; another official noted a lack of trained FDA
                              auditors available to conduct the audits. Without conducting the
                              minimum number of required audits, FDA cannot effectively
                              ensure that State inspectors are following proper procedures and
                              adequately identifying violations during inspections.
                              When audits were conducted, they most commonly found problems
                              with inspectors’ ability to identify violations
                              Of the 419 inspectors audited in the 2009 contract year, 32 percent
                              had at least 1 deficiency. Of the inspectors with deficiencies, over
                              half failed to properly identify violations in food facilities.
                              Specifically, these inspectors had at least one of the following
                              deficiencies:
                              • failure to properly evaluate the likelihood that conditions,
                                practices, components, and/or labeling could cause the product
                                to be adulterated or misbranded;
                              • failure to assess employee practices critical to the safe
                                production and storage of food; and
                              • failure to recognize violative conditions or practices (if present)
                                and record findings consistent with State procedures.
                              Examples of these deficiencies include instances in which the
                              auditors noted that the inspectors did not write up evidence of
                              rodents, did not notice a leaky roof above exposed food, or did not
                              notice broken glass that could find its way into a food product.
                              The audits in 10 States revealed systemic problems that needed to be
                              corrected; FDA often failed to correct them
                              According to FDA guidance, a systemic problem exists when audits
                              identify the same deficiency in four or more audits during the
                              same contract year or when 20 percent of the performance factors
                              in a State are rated as needing improvement.
                              The audits in 10 States revealed systemic problems that needed to
                              be corrected. Of the 10 States with systemic problems, 9 had
                              audits that identified the same deficiency in 4 or more audits. The
                              most common systemic problem was the inspectors’ failure to
                              identify violations. For example, four of these States had systemic
                              problems because four or more inspectors did not properly
                              evaluate the likelihood that conditions, practices, components,
                              and/or labeling could cause the product to be adulterated or


OEI-02-09-00430               VULNERABILITIES   IN   F D A’ S O V E R S I G H T   OF   S TAT E F O O D FA C I L I T Y I N S P E C T I O N S   15
  F   I   N   D I   N G   S

                          misbranded. The 10th State had more than 20 percent of its
                          performance factors rated as needing improvement.
                          FDA officials initiated corrective action in 4 of the 10 States with
                          systemic problems. 40 In another 5 of these 10 States, FDA did not
                          analyze the audit data and was, therefore, unaware of the
                          systemic problems in those States. For the remaining State, FDA
                          knew about the problem but did not take any corrective action. If
                          FDA does not follow its own guidance and address systemic
                          problems found during its audits, it cannot verify that States are
                          conducting suitable inspections that satisfy the requirements of
                          the contracts, nor can it be assured of the safety of food facilities
                          inspected by those States.
                          In addition to revealing these systemic problems, several audits
                          identified problems with the performance of individual inspectors
                          whose overall ratings indicated that their performance needed
                          improvement. Specifically, 3 of the 419 inspectors received overall
                          ratings of needing improvement, and 1 of those inspectors received
                          an overall rating of needing improvement in 2 separate audits.
                          State inspectors who receive overall ratings of needing
                          improvement are supposed to receive remedial training from
                          either FDA or the State prior to resuming inspection duties. For
                          two of these three inspectors, the State arranged remedial
                          training; for the remaining inspector, FDA failed to take any
                          corrective action.




                          40 In one of these four States, FDA initiated corrective action as a result of our
                          inquiry.



OEI-02-09-00430           VULNERABILITIES   IN   F D A’ S O V E R S I G H T   OF   S TAT E F O O D FA C I L I T Y I N S P E C T I O N S   16
            R E C O M M E N D A T I O N S


                    FDA has increasingly relied on States to conduct food facility
                    inspections. Further, the FDA Food Safety Modernization Act
                    substantially increased the number of inspections that FDA needs
                    to complete annually, and FDA has indicated that it will continue
                    to rely on States to help conduct these additional inspections. As a
                    result, it is critical that the agency monitor and oversee these
                    inspections.
                    Our report identified significant weaknesses in FDA’s oversight of
                    State food facility inspections. Notably, in eight States, FDA
                    failed to ensure that the required number of inspections was
                    completed and paid for many inspections that were incomplete. If
                    States fail to complete the number of inspections required in their
                    contracts, FDA’s ability to identify facilities with potentially
                    serious food safety violations is diminished.
                    Also, FDA did not ensure that all contract inspections were
                    properly classified or that all inspection violations were remedied.
                    Finally, FDA failed to complete the required number of audits for
                    one-third of the States, and when audits were performed, FDA
                    often failed to address the systemic problems identified. If FDA
                    does not conduct the required number of audits and fails to
                    address systemic problems, it cannot verify that States are
                    conducting suitable inspections that satisfy the requirements of
                    the contracts, nor can it assure the safety of food facilities
                    inspected by those States.
                    Taken together, the findings demonstrate that more needs to be
                    done to protect public health and to ensure that contract
                    inspections are effective and prevent outbreaks of foodborne
                    illness. Therefore, we recommend that FDA:
                    Ensure that all contract inspections are completed, properly
                    documented, and appropriately paid for
                    FDA should ensure that all inspections required by the contracts
                    are completed and properly documented in its inspections
                    database prior to making payments to States. FDA should also
                    verify that inspection visits are allowable under the contracts prior
                    to making such payments. At a minimum, FDA should annually
                    review its data to ensure that all inspections are completed and
                    documented in its database. By putting these controls in place,

OEI-02-09-00430     VULNERABILITIES   IN   F D A’ S O V E R S I G H T   OF   S TAT E F O O D FA C I L I T Y I N S P E C T I O N S   17
  R   E C     O   M   M   E    N D     A T           I    O      N      S

                              FDA would ensure that it pays appropriately for contract
                              inspections.
                              Ensure that contract inspections are properly classified in accordance
                              with FDA guidance
                              FDA should properly classify all contract inspections, especially
                              those in which the most serious violations are found. FDA may
                              need to revise its guidance to clarify the circumstances under
                              which OAIs should be given for contract inspections. FDA may
                              also need to conduct training for district office officials to ensure
                              that the guidance is consistently applied. Appropriate
                              classification of inspections will improve FDA’s ability to assess
                              the relative risk of facilities.
                              Ensure that all inspection violations are remedied by routinely
                              tracking all actions taken to correct violations
                              FDA should ensure that violations identified during contract
                              inspections have been corrected. If FDA determines that States
                              are responsible for correcting food facility violations, it should
                              require that the States notify FDA of all actions taken. FDA may
                              also consider expanding the capability of its inspections database
                              or consider developing a tracking system to monitor the corrective
                              actions taken by States as well as facilities’ responses.
                              Ensure that the minimum audit rate is met in all States
                              Audits ensure that States conduct suitable inspections that satisfy
                              contract requirements. FDA should ensure that 7 percent of State
                              contract inspections are audited each year. If FDA reduces a
                              State’s minimum audit rate, it should ensure that the lowered rate
                              is sufficient to determine whether the State is conducting suitable
                              inspections.
                              Address any systemic problems identified by audits
                              FDA should analyze all audit deficiencies to determine when
                              corrective action is necessary. FDA should review deficiency data
                              for the entire State to identify any systemic problems. When
                              problems are identified, FDA should ensure that corrective action
                              is taken and that all problems have been addressed. FDA should
                              also review deficiency data on individual State inspectors and
                              ensure that they receive the required remedial training, or other
                              actions as necessary, and that deficiencies are addressed. FDA
                              should also work with States to ensure that inspectors receive
                              additional training in areas where a significant number of them
                              are deficient.

OEI-02-09-00430               VULNERABILITIES   IN   F D A’ S O V E R S I G H T   OF   S TAT E F O O D FA C I L I T Y I N S P E C T I O N S   18
     R   E C      O   M   M   E   N D      A T            I    O      N      S


                              AGENCY COMMENTS AND OFFICE OF INSPECTOR
                              GENERAL RESPONSE
                              In its response to the draft report, FDA concurred with four of our
                              recommendations and agreed in part with the fifth. It noted that
                              collaboration with its State partners is critical to an integrated
                              national food safety system. FDA also noted that the current
                              oversight program is in transition and that although FDA
                              continues its longstanding program audits of State inspections, it
                              is moving forward to fully implement its Manufactured Food
                              Regulatory Program Standards.
                              In response to our first recommendation, to ensure that all
                              contract inspections are completed, properly documented, and
                              appropriately paid for, FDA concurred, stating that it is
                              conducting a systematic review of the State contracting program.
                              FDA further stated that it will ensure that processes are
                              established to periodically review contract data. In addition, FDA
                              noted that it has instituted practices to ensure that it reviews all
                              contracts before they are issued to confirm that the contractors
                              have elected to either include or exclude inspection visits.
                              In response to our second recommendation, to ensure that contract
                              inspections are properly classified, FDA concurred and noted that
                              it is revising its directive to emphasize more clearly that
                              classifications must be accurate, timely, and uniform. FDA stated
                              that it will issue the revisions, post them on its Web site, and
                              establish an outreach schedule to explain the revisions to all key
                              stakeholders within its district offices.
                              In response to our third recommendation, to ensure that all
                              inspection violations are remedied by routinely tracking all actions
                              taken to correct violations, FDA agreed to track most violative
                              inspections and the remedies taken by industry. However, FDA
                              noted that certain violations may not be suitable for inspection
                              followup and that other approaches may be used to track such
                              violations. FDA noted that it is evaluating and modifying its
                              existing procedures to incorporate requirements for tracking State
                              followup and actions to correct violations. While we appreciate
                              FDA’s commitment to track certain violations, we encourage it to
                              track all violations, even those that do not warrant followup
                              inspections. FDA can use violation information to help establish
                              the relative risk of facilities and determine how often they should
                              be inspected.

OEI-02-09-00430               VULNERABILITIES   IN   F D A’ S O V E R S I G H T   OF   S TAT E F O O D FA C I L I T Y I N S P E C T I O N S   19
R   E C     O     M   M   E   N D     A T       I      O      N      S

                              In response to our fourth recommendation, to ensure that the
                              minimum audit rate is met in all States, FDA concurred, noting
                              that it is reviewing the current reporting requirements to ensure
                              that audits are completed and tracked to verify compliance with
                              FDA requirements.
                              Finally, in response to our fifth recommendation, to address any
                              systemic problems identified by audits, FDA concurred and noted
                              that it will continue to develop processes and procedures to ensure
                              that systemic problems are identified and that corrective action
                              plans are implemented.
                              We support FDA’s efforts to strengthen State contract inspections
                              and address the issues identified in this report. With the
                              implementation of the Manufactured Food Regulatory Program
                              Standards, FDA’s oversight of State inspections is even more
                              critical. As States adopt the standards, it is essential that FDA
                              strengthen not only States’ oversight but also its own oversight to
                              ensure that States conduct high-quality food facility inspections.
                              For the full text of FDA’s comments, see Appendix F. We made
                              minor changes to the report based on technical comments.




OEI-02-09-00430               VULNERABILITIES   IN   F D A’ S O V E R S I G H T   OF   S TAT E F O O D FA C I L I T Y I N S P E C T I O N S   20
       A P P E N D I X                             A


  Table A-1: Performance Factors of the Contract Audit
  Audit element*

 1. Did the inspector review the State’s establishment file for the previous inspection report and possible complaints or access other
 available resources in preparation for the inspection?

 2. Did the inspector have the appropriate equipment and forms to properly conduct the inspection?

 3. Was FDA jurisdiction established?
 4. Did the inspector select an appropriate product for the inspection and, if necessary, make appropriate adjustments based on what
 the firm was producing?

 5. Did the inspector assess the employee practices critical to the safe production and storage of food?

 6. Did the inspector properly evaluate the likelihood that conditions, practices, components, and/or labeling could cause the product to
 be adulterated or misbranded?

 7. Did the inspector recognize significant violative conditions or practices (if present) and record findings consistent with State
 procedures?

 8. Did the inspector demonstrate the ability to distinguish between significant verses insignificant observations and isolated incidents
 versus trends?

 9. Did the inspector review and evaluate the appropriate records and procedures for this establishment’s operations and effectively
 apply the information obtained from this review?

 10. Did the inspector collect adequate evidence and documentation in accordance with State procedures given the nature of the
 inspection findings?

 11. Did the inspector verify correction of deficiencies identified during the previous State inspection?

 12. Did the inspector act in a professional manner and demonstrate proper sanitary practices during the inspection?

 13. Did the inspector identify himself/herself and make appropriate introductions, which include explaining the purpose and scope of
 the inspection?

 14. Did the inspector use suitable interviewing techniques?

 15. Did the inspector explain the findings clearly and adequately throughout the inspection?

 16. Did the inspector alert the firm’s appropriate management when an immediate corrective action was necessary?

 17. Did the inspector answer questions and provide information in an appropriate manner?

 18. Did the inspector write his/her findings accurately, clearly, and concisely on the State form/document left with the firm?

 Performance factors specific to inspections of certain high-risk facilities

 1. Did the inspector use the “Fish and Fishery Products Hazards and Controls Guide” or the “Juice HACCP Hazards and Controls
 Guide,” as appropriate, to identify and evaluate the hazards associated with the product and the process?**

 2. Did the inspector assess the firm’s implementation of sanitation monitoring for the applicable eight key areas of sanitation?

 3. Did the inspector review the firm’s HACCP plan (or necessary process controls in the absence of a HACCP plan) and applicable
 monitoring, verification, and corrective action records, including those related to sanitation?

 4. Did the inspector recognize deficiencies in the firm’s monitoring and sanitation procedures through in-plant observations?
*Taken from the Food and Drug Administration (FDA) Contract Audit Form 3610.

**HACCP refers to Hazard Analysis and Critical Control Points, a food safety management system for foods or processes considered high risk by FDA.

Source: Office of Inspector General review of the FDA Contract Audit Form 3610, 2010.




  OEI-02-09-00430                      VULNERABILITIES   IN   F D A’ S O V E R S I G H T   OF   S TAT E F O O D FA C I L I T Y I N S P E C T I O N S   21
         A P P E N D I X                          B



States’ Role in Conducting Audits as Part of the Food and Drug Administration’s Contract
Inspection Audit Program
The Food and Drug Administration’s (FDA) audit program allows States to assume
responsibility for conducting their own audits of State inspectors. If FDA and a State
agree, the States assume responsibility for some or all of the audits. The terms of these
additional responsibilities—as well as the amount of additional compensation received by
the States—are specified in the States’ contracts. The audit program is made up of three
successive phases of increasing responsibility assumed by the States:
Phase 1. In the first phase, trained FDA auditors conduct all of the audits of State
inspectors. In this phase, FDA must meet the 7-percent minimum audit rate. 41
Phase 2. In the second phase, both FDA and State auditors conduct the audits of State
inspectors. Before he or she is allowed to conduct audits independently, a State auditor
trainee must have the appropriate qualifications. The trainee must then observe an FDA
auditor performing an audit of a State inspector. Finally, an FDA auditor must verify that
the trainee’s performance is acceptable by observing an audit. Once State auditors are
deemed qualified, the State can work with FDA to meet the 7-percent minimum audit rate;
however, FDA is ultimately responsible for ensuring that the minimum audit rate is met.
Phase 3. In the third phase, State auditors conduct all audits of State inspectors, and
State auditors are solely responsible for meeting the 7-percent minimum audit rate.
In this phase, FDA oversees State audits by auditing the performance of the State
auditors. These FDA verification audits are conducted during a State audit of a State
inspection. To perform these audits, FDA selects a representative sample of State audits.
An FDA auditor then observes and assesses the State auditor and produces a
memorandum with the results of the audit.
See Table B-1 for the phase of the contract audit program for each State in the
2009 contract year.




41 FDA, Office of Regulatory Affairs,Field Management Directive No. 76: § III.B. Accessed at http://www.fda.gov
on January 28, 2011. Although each contract is for 1 year, timeframes for auditing inspectors are based on the
length of time since an inspector was last audited.



OEI-02-09-00430                 VULNERABILITIES   IN   F D A’ S O V E R S I G H T   OF   S TAT E F O O D FA C I L I T Y I N S P E C T I O N S   22
 A     P P       E    N    D I      X        ~       B



 Table B-1: Phases of the Contract Audit Program for the
 2009 Contract Year

 States in Phase 1                                    States in Phase 2                                      States in Phase 3
 Alabama, California,                        Colorado, North Carolina,                        Arkansas, Alaska, Maryland,
 Connecticut, Florida, Georgia,            South Carolina,* Tennessee                       Michigan, Mississippi, Missouri,
 Illinois, Iowa, Kansas,                                                                          New York, Oregon, West
 Kentucky, Louisiana, Maine,                                                                          Virginia,* Wisconsin,
 Massachusetts, Minnesota,
 Montana, Nebraska, Nevada,
 New Jersey, Ohio, Oklahoma,
 Pennsylvania, Puerto Rico,
 Rhode Island, South
 Carolina,* Texas, Virginia,
 Vermont, Washington, West
 Virginia,* Wyoming

*FDA had two contracts with two different State agencies in West Virginia and South Carolina; in both States, these
two agencies were in different phases of the audit program.

Source: Office of Inspector General analysis of FDA State contracts, 2010.




 OEI-02-09-00430                        VULNERABILITIES   IN   F D A’ S O V E R S I G H T   OF   S TAT E F O O D FA C I L I T Y I N S P E C T I O N S   23
          A P P E N D I X                           C


    Table C-1: Description of Services in State Contracts for the 2009 Contract Year
                                                                                                                 Implementing
                                                                                    Inspection                   Manufactured
                                                      Total Food                        Visits                 Food Regulatory
                                                     Inspections                   Included in                        Program                     Other Services Listed in the
     State                                              Required                      Contract                      Standards                                           Contract
    Alabama                                                  175                          Yes                             Yes                               Training and travel
    Alaska                                                   292                          Yes                             Yes                                 Training and travel
    Arkansas                                                 200                          Yes                              No                                              None
    California                                               335                           No                              No                                 Training and travel
    Colorado                                                 207                          Yes                             Yes                      Training, travel, and samples
    Connecticut                                               70                          Yes                              No                                 Training and travel
    Florida                                                  490                           No                              No*                     Training, travel, and samples
    Georgia                                                  225                          Yes                             Yes                                 Training and travel
    Illinois                                                 390                          Yes                              No                                              None
    Iowa                                                     150                           No                              No                                              None
    Kansas                                                   125                          Yes                             Yes                                 Training and travel
    Kentucky                                                 136                          Yes                              No                                 Training and travel
    Louisiana                                                200                           No                              No                                 Training and travel
    Maine                                                     32                          Yes                              No                                              None
    Maryland                                                 180                           No                             Yes                      Training, travel, and samples
    Massachusetts                                            275                          Yes                             Yes                                 Training and travel
    Michigan                                                 410                           No                             Yes                      Training, travel, and samples
    Minnesota                                                282                          Yes                              No*                                Training and travel
    Mississippi                                              100                           No                             Yes                                 Training and travel
    Missouri                                                 450                          Yes                             Yes                                 Training and travel
    Montana                                                   90                           No                              No                                 Training and travel
    Nebraska                                                 130                          Yes                              No                                 Training and travel
    Nevada                                                   153                          Yes                              No                                 Training and travel
    New Jersey                                               411                          Yes                              No                                 Training and travel
    New York                                                 378                          Yes                             Yes                                 Training and travel
    North Carolina                                           254                          Yes                             Yes                                 Training and travel
    Ohio                                                     500                          Yes                              No                      Training, travel, and samples
    Oklahoma                                                 300                          Yes                             Yes                                 Training and travel
    Oregon                                                   750                           No                             Yes                                 Training and travel
    Pennsylvania                                             100                           No                              No                                              None
    Puerto Rico                                               90                           No                              No                                              None
    Rhode Island                                             150                          Yes                             Yes                                 Training and travel
    South Carolina Department of Agriculture                 115                          Yes                                                                 Training and travel
    South Carolina Department of Health                       33                          Yes                                        Yes           Training, travel, and samples
    Tennessee                                                185                           No                                         No                      Training and travel
    Texas                                                    685                          Yes                                         No                      Training and travel
    Vermont                                                    8                           No                                        Yes                      Training and travel
    Virginia                                                 470                          Yes                                        No*                      Training and travel
    Washington                                               550                          Yes                                        Yes                      Training and travel
    West Virginia Department of Agriculture                   45                          Yes                                         No                                   None
    West Virginia Department of Health                        80                          Yes                                        Yes                      Training and travel
    Wisconsin                                                289                          Yes                                        Yes                      Training and travel
    Wyoming                                                   35                           No                                        Yes                      Training and travel
        Total                                             10,525
*
State has agreed to implement the Manufactured Food Regulatory Program Standards, but not as part of its contract with the Food and Drug
Administration (FDA).

Source: Office of Inspector General analysis of FDA’s State contracts and documentation, 2010.




    OEI-02-09-00430                   VULNERABILITIES    IN   F D A’ S O V E R S I G H T   OF   S TAT E F O O D FA C I L I T Y I N S P E C T I O N S                     24
         A P P E N D I X                              D

  Table D-1: Number of Inspections Classified as Official Action Indicated Conducted by
  FDA* and by States, FYs 2004–2009

                                             Number of FDA Inspections Classified as                                        Number of State Inspections Classified as
  Fiscal Year                                               Official Action Indicated                                                        Official Action Indicated
  2004                                                                                                      540                                                     118
  2005                                                                                                      425                                                     113
  2006                                                                                                      323                                                     124
  2007                                                                                                      244                                                     32
  2008                                                                                                      266                                                     12
  2009                                                                                                      371                                                     47
  Average from 2004 to 2009                                                                                 362                                                     74
*Food and Drug Administration.

Source: Office of Inspector General analysis of FDA data, 2010.




  OEI-02-09-00430                      VULNERABILITIES     IN   F D A’ S O V E R S I G H T   OF   S TAT E F O O D FA C I L I T Y I N S P E C T I O N S         25
             A P P E N D I X                               E
  Table E-1: Audits Completed for the 2009 Contract Year, by State
                                                                  Minimum                               Number of                         Additional          Met the
                                                                Number of                          Required Audits                           Audits         Minimum
  State                                                    Audits Required                             Completed                          Completed       Audit Rate?
  Alabama                                                                12                                      5                                 0               No
  Alaska                                                                 20                                    20                                  0              Yes
  Arkansas                                                               4*                                      4                                10              Yes
  California                                                             23                                    18                                  0               No
  Colorado                                                               14                                    14                                  0              Yes
  Connecticut                                                             4                                      4                                 0              Yes
  Florida                                                                34                                    34                                  0              Yes
  Georgia                                                                15                                    15                                  4              Yes
  Illinois                                                               27                                    18                                  0               No
  Iowa                                                                   10                                      3                                 0               No
  Kansas                                                                  8                                      4                                 0               No
  Kentucky                                                                9                                      9                                 1              Yes
  Louisiana                                                              14                                    14                                  0              Yes
  Maine                                                                   2                                      2                                 0              Yes
  Maryland                                                               12                                    12                                  2              Yes
  Massachusetts                                                         10*                                    10                                  2              Yes
  Michigan                                                               28                                    28                                  1              Yes
  Minnesota                                                              7*                                      7                                16              Yes
  Mississippi                                                             7                                      7                                 2              Yes
  Missouri                                                               6*                                      6                                 0              Yes
  Montana                                                                1*                                      1                                 2              Yes
  Nebraska                                                                9                                      3                                 0               No
  Nevada                                                                 10                                      0                                 0               No
  New Jersey                                                            20*                                    20                                  0              Yes
  New York                                                               26                                    26                                  1              Yes
  North Carolina                                                         17                                    17                                  1              Yes
  Ohio                                                                   35                                    35                                  0              Yes
  Oklahoma                                                               21                                      4                                 0               No
  Oregon                                                                 52                                    52                                  0              Yes
  Pennsylvania                                                            7                                      6                                 0               No
  Puerto Rico                                                             6                                      6                                 0              Yes
  Rhode Island                                                           10                                      6                                 0               No
  South Carolina Department of Agriculture                                8                                      6                                 0               No
  South Carolina Department of Health                                     2                                      2                                 2              Yes
  Tennessee                                                              12                                    12                                  1              Yes
  Texas                                                                 35*                                    34                                  0               No
  Vermont                                                                 1                                      1                                 0              Yes
  Virginia                                                               32                                    23                                  0               No
  Washington                                                             38                                    38                                  3              Yes
  West Virginia Department of Agriculture                                 3                                      0                                 0               No
  West Virginia Department of Health                                      5                                      5                                 1              Yes
  Wisconsin                                                              20                                    20                                  0              Yes
  Wyoming                                                                 2                                      2                                 0              Yes
       Total                                                           638                                    553                                 49
One of the two agencies in South Carolina and in West Virginia failed to meet the audit rate; in these instances, we counted the State as having failed
to meet the audit rate.

*The Food and Drug Administration (FDA) lowered the minimum audit rate for this State.

Source: Office of Inspector General analysis of FDA’s audit forms and documentation, 2010.




  OEI-02-09-00430                        VULNERABILITIES    IN   F D A’ S O V E R S I G H T   OF   S TAT E F O O D FA C I L I T Y I N S P E C T I O N S            26
          A P PEN D                                 x           F


           Agency Comments




                  ...... ~...       .       ...            ..          .


              (4D....~P'                            . .ALTI!.. . . . V~._.~,-·_SE_R_V_IC_E_S_~_-'-
                                                                             ..•                     ___        -,-~~.,..,--'-~
                                                                                                              .Food ~nd Drug Admlnls.trafton
                                                                                                               Sliver 6prJngMD 20Q93 .




                                 DATE:          October 28,2011

                                 TO:            Deputy Inspector General for EVllluations and Inspections, orG

                                 FROJ\il:       Acting Associate Commissioner for PoJicy and Planning, FDA

                                 SUB,JECT:FDA's Re~ponse to oro's draft report entitled, Vulnerabilities in Fl)A's
                                          Oversight ofState Food Facility Jnspections.OEI~02c09-00430

                                   FDA is providing the ilttachcd response to the Office of Inspector General's draft report
                                .. entitled, Vulnerabilities in FDA's Oversight bjState. Foodfacility Inspections, .
                                 OEI~02-09-00430.



                                 FDA appreciates the opportunity to comment on this draft report.

                                                                                   /S/
                                                                           David Dorsey,J .D.


                                 Attachment




OEI·02·09·00430                         VULNERABILITIES IN FDA's OVERSIGHT OF STATE FOOD FACILITY INSPECTIONS                                  27
  A   P P     E   N   D I   X      ~      F




OEI-02-09-00430             VULNERABILITIES   IN   F D A’ S O V E R S I G H T   OF   S TAT E F O O D FA C I L I T Y I N S P E C T I O N S   28
  A   P P     E   N   D I   X      ~      F




OEI-02-09-00430             VULNERABILITIES   IN   F D A’ S O V E R S I G H T   OF   S TAT E F O O D FA C I L I T Y I N S P E C T I O N S   29
  A   P P     E   N   D I   X      ~      F




OEI-02-09-00430             VULNERABILITIES   IN   F D A’ S O V E R S I G H T   OF   S TAT E F O O D FA C I L I T Y I N S P E C T I O N S   30
  A   P P     E   N   D I   X      ~      F




OEI-02-09-00430             VULNERABILITIES   IN   F D A’ S O V E R S I G H T   OF   S TAT E F O O D FA C I L I T Y I N S P E C T I O N S   31
  A   P P
         A EC NK DN I OX W ~L E F D G M E N T S



                     This report was prepared under the direction of Jodi Nudelman,
                     Regional Inspector General for Evaluation and Inspections in the
                     New York regional office, and Meridith Seife, Deputy Regional
                     Inspector General.
                     Vincent Greiber served as the team leader for this study. Other
                     principal Office of Evaluation and Inspections staff from the New
                     York regional office who contributed to the report include Levita
                     Lowe, and Bailey G. Orshan; central office staff who contributed
                     include Kevin Farber and Sandy Khoury.




OEI-02-09-00430      VULNERABILITIES   IN   F D A’ S O V E R S I G H T   OF   S TAT E F O O D FA C I L I T Y I N S P E C T I O N S   32
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
